                                Office of Inspector General

                                U.S. Department of
  DEPARTMENT OF HOMELAND SECURITY
                                Homeland Security
                                Washington, DC 20528


       Office of Inspector General


     Improvements to Information Sharing
         are Needed to Facilitate Law
     Enforcement Efforts During Disasters




OIG-07-60                                       July 2007
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                            July 26, 2007

                                             Preface


The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibility to promote economy, efficiency, and effectiveness within the department.

This report addresses the extent to which information sharing processes and procedures can be
enhanced to better assist law enforcement efforts during disasters. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations, and analyses of
applicable documents.

The recommendations herein have been developed according to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. It is our hope
that this report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                             Richard L. Skinner
                                             Inspector General
Table of Contents/Abbreviations
EXECUTIVE SUMMARY .................................................................................................................. 1

Background ........................................................................................................................................... 3

Results of Audit .................................................................................................................................... 5

   Public Safety and Security ................................................................................................................ 5
     Access to FEMA Information....................................................................................................... 6
     Law Enforcement Requests .......................................................................................................... 8
     Disclosure of FEMA Disaster Recovery Assistance Files.......................................................... 10
     Direct Access for Public Safety and Security ............................................................................. 11
     Steps to Improve Information Sharing........................................................................................ 13
   Recommendations........................................................................................................................... 15

   Fraud Detection............................................................................................................................... 16
      The Computer Matching and Privacy Protection Act................................................................. 16
   Issue for Congressional Consideration ........................................................................................... 18

Management Comments and OIG Analysis ....................................................................................... 19

Appendices
     Appendix A:             Objectives, Scope, and Methodology.................................................................                    21
     Appendix B:             Management Comments.....................................................................................               22
     Appendix C:             FEMA November 2004 System of Records Notice ...........................................                                36
     Appendix D:             FEMA Guidance on Handling Law Enforcement Requests ..............................                                      40
     Appendix E:             FEMA July 2006 System of Records Notice .....................................................                          42
     Appendix F:             Major Contributors to this Report ......................................................................               46
     Appendix G:             Report Distribution.............................................................................................       47

Abbreviations
     DHS                      U.S. Department of Homeland Security
     DOJ                      U.S. Department of Justice
     FBI                      Federal Bureau of Investigation
     FEMA                     Federal Emergency Management Agency
     HHS                      U.S. Department of Health and Human Services
     HUD                      U.S. Department of Housing and Urban Development
     OIG                      Office of Inspector General
     USDA                     U.S. Department of Agriculture
OIG
Department of Homeland Security
Office of Inspector General

Executive Summary
Law enforcement efforts to provide public safety and security, and detect disaster assistance fraud,
are complicated by: (1) Federal Emergency Management Agency (FEMA) concerns about
improperly disclosing Privacy Act-protected information; and (2) the Computer Matching and
Privacy Protection Act, which prevents federal Inspectors General from expeditiously conducting
computer matches among recipients of disaster assistance.

Law enforcement agencies were not given direct access to FEMA disaster recovery assistance files
to locate missing children, sex offenders, and fugitive felons following Hurricane Katrina. Instead,
to obtain FEMA disaster recovery assistance files, the Federal Bureau of Investigation (FBI), the
New Orleans District Attorney’s Office, and state and local law enforcement agencies were required
to follow a time-consuming process, according to the Privacy Act’s general law enforcement
exception. FEMA took 5 to 12 days, on average, and as many as 35 days, to fulfill law enforcement
requests for critical information in support of public safety and security efforts. On March 1, 2006,
or seven months after Katrina made landfall, the Department of Homeland Security (DHS) and the
Department of Justice (DOJ) executed an agreement that provides law enforcement officials direct
access to FEMA disaster recovery assistance files for fraud investigations. Also, on January 8, 2007,
DHS and DOJ executed an agreement for the purpose of locating missing children displaced due to
disasters. However, DHS and DOJ have not established an arrangement that provides law
enforcement with direct access to FEMA disaster recovery assistance files for all public safety and
security needs, such as identifying the whereabouts of registered sex offenders and fugitive felons
following a disaster.

The Computer Matching and Privacy Protection Act prevented proactive fraud investigations by
federal Inspectors General because it required a time-consuming review and approval process before
computer matching could be performed. Computer matching to identify fraud following a disaster is
crucial to mitigate recurring improper payments and to recover improperly disbursed funds. Only
the U.S. Congress has the authority to exempt federal law enforcement agencies, including the
Inspectors General, from the Computer Matching and Privacy Protection Act to support their efforts
to identify and prevent fraud, waste, and abuse. Such an exemption would greatly facilitate the
efforts of the federal law enforcement community to obtain and analyze federal disaster assistance
records and identify those who attempt to defraud the government.




                         Improvements to Information Sharing are Needed to Facilitate Law
                                     Enforcement Efforts During Disasters


                                                   Page 1
OIG
Department of Homeland Security
Office of Inspector General


We are recommending that the Administrator of the Federal Emergency Management Agency:

1.    Add specific routine uses to the System of Records Notice that authorizes the disclosure of
      FEMA disaster recovery assistance files for the purpose of locating registered sex offenders
      and fugitive felons in the aftermath of a disaster.

2.    Develop and execute agreements with DOJ, the coordinator for Public Safety and Security
      under the National Response plan, to provide appropriate law enforcement entities direct
      access to FEMA disaster recovery assistance files for public safety and security efforts,
      including identifying the whereabouts of registered sex offenders and fugitive felons.

3.    Collaborate with DOJ to develop protocols, procedures, and processes to facilitate the
      appropriate sharing of information from FEMA disaster recovery assistance files among
      federal, state, local, and tribal law enforcement agencies that are responsible for ensuring
      public safety and security following a disaster.




                        Improvements to Information Sharing are Needed to Facilitate Law
                                    Enforcement Efforts During Disasters


                                                  Page 2
Background
Hurricane Katrina struck the Gulf Coast in August 2005 and was the most destructive natural
disaster in the history of the United States. It displaced hundreds of thousands of Gulf Coast
residents, from the extremely vulnerable to the extremely dangerous. Among the displaced were
approximately 5,000 missing children, more than 2,000 unaccounted registered sex offenders,
and a multiplicity of fugitive felons.

Congress provided approximately $82 billion dollars to multiple federal agencies for Gulf Coast
disaster response and recovery. In the area of housing alone, there were four primary agencies
that provided housing assistance: DHS, U.S. Department of Housing and Urban Development
(HUD), U.S. Department of Agriculture (USDA), and U.S. Department of Health and Human
Services (HHS). A recent USDA audit revealed that more than 44% of disaster victims received
housing assistance from more than one federal agency. Furthermore, the Government
Accountability Office estimated that DHS improperly disbursed between $600 million and $1.4
billion disaster assistance after Hurricanes Katrina and Rita.

The National Response Plan was implemented during Hurricane Katrina to deliver and apply
federal resources and capabilities in support of the state and local government response. The
National Response Plan is a comprehensive, national, all-hazards approach to domestic incident
management across a spectrum of activities including prevention, preparedness, response, and
recovery. It is meant to align Federal coordination structures, capabilities, and resources into a
unified, all-discipline, and all-hazards approach to domestic incident management.

DHS is responsible for coordinating federal operations within the United States to prepare for,
respond to, and recover from terrorist attacks, major disasters, and other emergencies. DHS is
also responsible for coordinating federal resources used in the prevention of, preparation for,
response to or recovery from terrorist attacks, major disasters, or other emergencies. At the time
of Hurricane Katrina, DHS was a coordinator, along with the DOJ, for the National Response
Plan’s Emergency Support Function Thirteen – Public Safety and Security.




                        Improvements to Information Sharing are Needed to Facilitate Law
                                    Enforcement Efforts During Disasters


                                                  Page 3
The National Response Plan’s Emergency Support Function Thirteen – Public Safety and
Security is intended to be the coordinating mechanism for providing federal-to-federal support or
federal support to state and local authorities with respect to public safety and security capabilities
and resources. It generally is activated in situations requiring extensive assistance to provide
public safety and security and where state and local government resources are overwhelmed or
are inadequate. According to the White House report regarding the federal response to
Hurricane Katrina, law and order in New Orleans began to deteriorate almost immediately
following Hurricane Katrina’s landfall. The city’s police were overwhelmed and federal law
enforcement was ill-prepared and ill-positioned to respond efficiently and effectively to the
crisis.

The National Response Plan was updated in May 2006 and DHS was removed as a coordinator
for Emergency Support Function Thirteen – Public Safety and Security, but remains a support
agency responsible for providing data for operations that reside within DHS, such as FEMA
disaster recovery assistance files. FEMA became part of DHS on March 1, 2003.

FEMA’s mission is to lead the effort to prepare the nation for all hazards and effectively manage
federal response and recovery efforts following any national incident. Under the authority of the
Robert T. Stafford Disaster Relief and Emergency Assistance Act, FEMA provides financial
assistance and, if necessary, direct services to eligible individuals and households who, as a
direct result of a major disaster, have necessary expenses and serious needs and are unable to
meet such expenses or needs through other means. Information collected from individuals
applying for FEMA assistance is maintained in a system of records known as FEMA disaster
recovery assistance files.




                        Improvements to Information Sharing are Needed to Facilitate Law
                                    Enforcement Efforts During Disasters


                                                  Page 4
Results of Audit
     Public Safety and Security
                The FBI, New Orleans District Attorney’s Office, state and local law
                enforcement agencies, and others responsible for public safety and
                security in the aftermath of Hurricane Katrina were not given direct access
                to FEMA disaster recovery assistance files to locate missing children,
                registered sex offenders, and fugitive felons. Direct access permits law
                enforcement to view FEMA files independently and instantly, in the
                performance of official duties. FEMA disaster recovery assistance files
                consist of Privacy Act-protected information provided by the applicant to
                obtain federal disaster assistance, such as the applicant’s name, social
                security number, and income information. Instead of direct access to
                FEMA disaster recovery assistance files, law enforcement was required to
                follow a protracted process to obtain this information under the general
                law enforcement exception to the Privacy Act. FEMA took 5 to 12 days
                on average to provide law enforcement with the information needed to aid
                public safety and security efforts, once FEMA received and approved the
                request.

                FEMA, in its August 2006 “After Action Report” on Hurricane Katrina,
                noted frustrations with information sharing among those directly involved
                with relief efforts. One individual commented, “Privacy Act prohibitions
                on sharing applicant data made it impossible to work together on
                resolution to issues …DHS/FBI/FEMA/State coordination is essential
                relative to evacuees who committed crimes.” Another participant stated
                that, “Either the [Privacy] Act itself, or our interpretation of the Act needs
                to be reconsidered. We must have the ability to share information with
                state and local partners, as well as other federal partners. I think we are
                too restrictive in our internal interpretation of the Act.”




                   Improvements to Information Sharing are Needed to Facilitate Law
                               Enforcement Efforts During Disasters


                                             Page 5
     DHS and DOJ did not resolve law enforcement’s need for direct access to
     FEMA disaster recovery assistance files following Hurricane Katrina,
     even though at the time both were coordinating agencies for the National
     Response Plan’s Emergency Support Function Thirteen, Public Safety and
     Security. FEMA faced intense criticism for denying or delaying law
     enforcement agencies’ access to FEMA disaster recovery assistance files
     to pursue public safety and security investigations.

     DHS and DOJ executed a memorandum of agreement in March 2006 that
     provided law enforcement officials direct access to FEMA disaster
     recovery assistance files solely for fraud investigations. FEMA
     determined that this arrangement was permissible according to the Privacy
     Act and was compatible with FEMA’s routine use for its disaster recovery
     assistance files. Routine uses are specified purposes for which federal
     agencies may disclose information contained in a Privacy Act-protected
     system of records. However, FEMA did not believe that it could disclose
     information to law enforcement for public safety and security
     investigations, such as missing children cases, under the routine uses
     contained in its November 2004 System of Records Notice. (See
     Appendix C for FEMA’s November 2004 System of Records Notice and
     the routine uses for FEMA disaster recovery assistance files in effect
     during Hurricane Katrina.)


Access to FEMA Information
     FEMA officials told us that they did not provide law enforcement direct
     access to FEMA disaster recovery assistance files for public safety and
     security in the aftermath of Hurricane Katrina because they were
     concerned about improperly disclosing Privacy Act-protected information.
     The Privacy Act of 1974 is characterized as an omnibus code of fair
     information practices that regulates the collection, maintenance, use, and
     dissemination of personal information by federal executive branch


      Improvements to Information Sharing are Needed to Facilitate Law
                  Enforcement Efforts During Disasters


                                Page 6
agencies. It requires each agency to publish in the Federal Register a
description of their systems of records and routine uses to make
recordkeeping practices transparent, to notify individuals about the use of
their personal information, and to assist individuals in finding such files
maintained by the agency.

In lieu of law enforcement’s direct access to FEMA disaster recovery
assistance files, FEMA’s Chief Counsel issued a memorandum in October
2005 that described the criteria and process that law enforcement agencies
must fulfill to receive FEMA disaster recovery assistance files under the
Privacy Act’s general law enforcement exception. (Appendix D contains
FEMA’s guidance regarding a law enforcement agency’s request for
FEMA records under the Privacy Act.) The process is as follows:

    1. The request must be made in writing to FEMA Counsel.
    2. The written request must come from the head of the requesting
       agency or an appropriate designee for the head of that agency.
    3. The written request must: (a) state the specific criminal or law
       enforcement activity and the legal basis for that activity for which
       the agency is seeking information; (b) identify the specific persons
       about whom the law enforcement agency is seeking information;
       and (c) identify the specific information about the listed persons
       that the law enforcement agency wants to receive.
    4. The memorandum further states: “If the written request does not
       address all of these requirements it is not a sufficient request, and
       we cannot process it.”

FEMA told us that, in responding to information-sharing requests, a
careful balance needs to be struck between protecting applicants’ privacy
interests and other equally important purposes, including law enforcement
inquiries. FEMA said it received numerous requests from law
enforcement agencies that could not be fulfilled because the requests were
not legally sufficient or did not demonstrate a violation or potential


 Improvements to Information Sharing are Needed to Facilitate Law
             Enforcement Efforts During Disasters


                           Page 7
                               violation of law. FEMA said it successfully responded to approximately
                               216 law enforcement requests. However, the process FEMA employed to
                               respond to requests significantly delayed law enforcements’ access to
                               information.


                    Law Enforcement Requests
                               FEMA took 5 to 12 days, on average, and as many as 35 days to respond
                               to law enforcement requests for information to locate missing children and
                               to pursue sex offenders and fugitive felons. The following graphs
                               illustrate FEMA’s average response times for law enforcement requests
                               based upon data provided to us by FEMA Office of Chief Counsel in
                               September 2006.


                   FEMA's Average Response Time to Law Enforcement
                                      Requests

               Illegal Drugs                                                                      12
Case Type




            Missing Children                                                                      12
             Fugitive Felons                                                        10
                  Homicide                                        6
              Sex Offenders                               5

                               0        2          4          6         8         10        12         14
                                            Days to Fulfill Law Enforcement Requests




                               Improvements to Information Sharing are Needed to Facilitate Law
                                           Enforcement Efforts During Disasters


                                                         Page 8
                   FEMA's Maximum Response Time to Law Enforcement
                                     Requests

             Fugitive Felons                                                                       35
Case Type




            Missing Children                                                          29
              Sex Offenders                                                           29
               Illegal Drugs                                                24
                  Homicide                                         19

                               0        5       10       15        20       25       30        35       40
                                            Days to Fulfill Law Enforcement Requests




                               It took over 6 months for the FBI and the National Center for Missing and
                               Exploited Children to resolve all Hurricane Katrina missing children
                               cases. The FBI agent investigating missing children cases following
                               Hurricane Katrina told us that it was, “burdensome and next to impossible
                               to get access to FEMA data,” noting that the FBI could not, “receive
                               information in a timely fashion.” For example, the FBI requested FEMA
                               disaster recovery assistance files to locate missing children on April 20,
                               2006, and the request was fulfilled 29 days later, on May 19, 2006.
                               According to crime statistics relating to child abduction cases where the
                               child is murdered, 99% are killed within the first 24 hours. The FBI agent
                               told us that direct access to FEMA disaster recovery assistance files was
                               needed to facilitate public safety and security investigations, particularly
                               those involving missing children.




                                Improvements to Information Sharing are Needed to Facilitate Law
                                            Enforcement Efforts During Disasters


                                                          Page 9
Disclosure of FEMA Disaster Recovery Assistance Files
     DHS and FEMA could have arranged for the timely disclosure of FEMA
     disaster recovery assistance files to law enforcement following Hurricane
     Katrina for the purpose of locating missing children, sex offenders, and
     fugitive felons. Specifically, DHS and FEMA could have expedited
     information sharing through use of the Health or Safety exception to the
     Privacy Act and by promptly adding routine uses to its System of Records
     Notice to authorize the release of information for public safety and
     security investigations.

     The Health or Safety exception to the Privacy Act allows for the
     immediate disclosure of records under compelling circumstances affecting
     an individual’s health or safety. We asked FEMA why the Health or
     Safety exception was not used to disclose information to assist law
     enforcement in locating missing children, and FEMA said that this
     exception was used where appropriate. FEMA used the Health or Safety
     exception to provide the U.S. Postal Service with the current contact
     information of their evacuated employees so that they could determine that
     they were safe and inform them of their health and pay benefits.
     Additionally, FEMA provided information to the U.S. Postal Service for
     the purpose of forwarding mail to displaced Gulf Coast customers.

     FEMA could have added routine uses to its System of Records Notice to
     authorize the release of information for public safety and security
     investigations in as few as 40 days, according to statutory and regulatory
     guidelines. We asked FEMA why a routine use for public safety and
     security was not added promptly to its System of Records Notice
     following Hurricane Katrina, and FEMA told us it had very limited
     resources and was focused on accomplishing its mission to process


      Improvements to Information Sharing are Needed to Facilitate Law
                  Enforcement Efforts During Disasters


                                Page 10
      requests for disaster assistance. Had a routine use been added to allow the
      release of information to locate missing children, sex offenders, and
      fugitive felons, DHS and DOJ could have executed an agreement that
      would have provided law enforcement direct access to FEMA disaster
      recovery assistance files for these purposes.


Direct Access for Public Safety and Security
      DHS and DOJ have yet to make the necessary arrangements to provide
      federal, state, local, and tribal law enforcement direct access to FEMA
      disaster recovery assistance files to identify the whereabouts of registered
      sex offenders and fugitive felons in the aftermath of a disaster. Following
      Hurricane Katrina, FEMA denied repeated requests from the Mississippi
      State Police for the passenger list of the Carnival cruise ship Holiday. The
      cruise ship Holiday was used as a temporary shelter for Hurricane Katrina
      victims.

      The Mississippi State Police wanted the Holiday’s passenger list to
      determine if any of the area’s 200 missing sex offenders were residing in
      the shelter. A September 2005 email from a FEMA Field Attorney
      explained DHS’ position on disclosing such information:

          The manifest information of each Katrina Disaster victim (name and
          date of birth) provided to Carnival Cruise Line by FEMA is solely
          provided for purposes of making appropriate cabin assignments.
          Accordingly, there is no blanket authorization for Carnival to provide
          the list to police without an express written release from each of
          passengers to whom the record pertains, or pursuant to a routine use,
          or pursuant to a Privacy Act of 1974 (Privacy Act) exception. A law
          enforcement request exception to the Privacy Act requires that the
          police have some evidence of a violation of a law. Blanket screening



       Improvements to Information Sharing are Needed to Facilitate Law
                   Enforcement Efforts During Disasters


                                 Page 11
    of passengers for criminal backgrounds would not meet this threshold
    and release of the manifest information is not related to the provision
    of disaster assistance for the passengers as within an appropriate
    routine use. This issue has been raised to the DHS Privacy Office
    Counsel which agrees that such blanket releases of information to law
    enforcement are not authorized.

The Mississippi State Police did not agree with this reasoning. They
maintained that criminal convictions are a matter of public record and that
checking the passenger list for occupants with criminal convictions would
be prudent and reasonable to ensure public safety and security.

A federal employee working on the Holiday reported in October 2005 that,
"A pedophile had just been removed from the Holiday a second time.
After removal from the ship the first time, he was allowed to board again.
He was observed by ship security to be around the video arcade and teen
lounge, and observed touching young girls.”

This federal employee, the following month, received additional
instructions for the release of passenger information: “law enforcement
needs to provide in writing their statutory authority to obtain any
information, and a list of names they want checked as sex offenders or
wanted fugitives. In other words, we can check any names they give us
against our manifest, but cannot give them a manifest to check against
their database.”

A senior official with the Louisiana State Police told us that they were also
denied access to FEMA disaster recovery assistance files for individuals
residing in FEMA’s temporary housing sites. He said that not having
access to this information affected their ability to ensure the safety of the
shelter and surrounding communities. This issue was deemed of such
great importance that Louisiana enacted a law that now requires each
shelter to notify law enforcement of any evacuee who is a registered sex


 Improvements to Information Sharing are Needed to Facilitate Law
             Enforcement Efforts During Disasters


                           Page 12
     offender. The law was so widely supported that it passed the Louisiana
     Legislature without a single “No” vote. However, the Louisiana State
     Police official acknowledged that this law does not compel the federal
     government or FEMA to share information.


Steps to Improve Information Sharing
     Steps have been taken to improve information sharing since Hurricane
     Katrina, but arrangements to provide law enforcement direct access to
     FEMA disaster recovery assistance files for all public safety and security
     efforts have not been established. Additionally, the protocols, procedures,
     and processes for sharing public safety and security information among
     federal, state, local, and tribal law enforcement have not been developed
     by either DHS or DOJ.

     FEMA has provided the Hurricane Katrina Fraud Task Force direct access
     to FEMA disaster recovery assistance files for the purpose of investigating
     fraud. The Hurricane Katrina Fraud Task Force was established in
     September 2005 to deter, detect, and prosecute instances of fraud related
     to Hurricane Katrina. Task members include the DOJ, United States
     Attorneys' Offices, the FBI, federal Inspectors General, and various
     representatives of state and local law enforcement. FEMA told us they
     could provide the Hurricane Katrina Fraud Task Force direct access to
     FEMA disaster recovery assistance files because FEMA’s November 2004
     System of Records Notice contained a routine use that was applicable to
     fraud.

     In July 2006, nearly 1 year after Hurricane Katrina, FEMA added a routine
     use to its system of records notice for the purpose of locating missing
     children, reuniting families, and addressing public safety and security
     matters. The addition of these routine uses facilitates the release of FEMA



      Improvements to Information Sharing are Needed to Facilitate Law
                  Enforcement Efforts During Disasters


                                Page 13
disaster recovery assistance files to federal agencies, state and local
governments, or law enforcement entities in the event of circumstances
involving an evacuation, sheltering, or mass relocation, and for purposes
of identifying and addressing public safety and security issues, but they do
not provide direct access. Furthermore, the July 2006 System of Records
Notice does not explicitly authorize the disclosure of records for purposes
of locating sex offenders and fugitive felons. Doing so would remove
ambiguity and obviate the need to rely on the Privacy Act’s law
enforcement exception, with its protracted procedural requirements for the
release of information. (Appendix E contains FEMA’s July 2006 System
of Records Notice and the revised routine uses for FEMA disaster
recovery assistance files.)

According to Public Law 109-295, section 640a, FEMA may disclose
information to law enforcement agencies for public safety and security:
“In the event of circumstances requiring an evacuation, sheltering, or mass
relocation, the Administrator may disclose information in any individual
assistance database of the Agency in accordance with section 552a(b) of
title 5, United States Code (commonly referred to as the ‘Privacy Act’), to
any law enforcement agency of the Federal Government or a State, local,
or tribal government in order to identify illegal conduct or address public
safety or security issues, including compliance with sex offender
notification laws.”. Additionally, the U.S. Congress included language in
section 689c(e), that instructs FEMA to enter into a memorandum of
understanding with the DOJ, the National Center for Missing and
Exploited Children, the Department of Health and Human Services,
American Red Cross, and other relevant private organizations that will
enhance the sharing of information to facilitate reuniting displaced
individuals with their families.

DHS and DOJ have collaborated since May 2006 to execute a
memorandum of agreement that provides law enforcement direct access to
FEMA disaster recovery assistance files for the purpose of locating


 Improvements to Information Sharing are Needed to Facilitate Law
             Enforcement Efforts During Disasters


                           Page 14
         missing children displaced due to disasters. The agreement was executed
         on January 8, 2007. However, similar agreements that would provide
         federal, state, local, and tribal law enforcement direct access to FEMA
         disaster recovery assistance files to identify the whereabouts of registered
         sex offenders and fugitive felons following a disaster have not been
         executed.

         It is obvious that law enforcement cannot wait days or weeks to receive
         information needed to protect the public. DHS’ role, as a support agency
         for the National Response Plan’s Emergency Support Function Thirteen –
         Public Safety and Security, should facilitate law enforcement access to
         FEMA disaster recovery assistance files for the purpose of securing
         FEMA shelters and protecting disaster victims and the general public from
         sex offenders and felons.

Recommendations
         We are recommending that the Administrator of the Federal Emergency
         Management Agency:

         1. Add specific routine uses to the System of Records Notice that
            authorizes the disclosure of FEMA disaster recovery assistance files
            for the purpose of locating registered sex offenders and fugitive felons
            in the aftermath of a disaster.

         2. Develop and execute agreements with DOJ, the coordinator for Public
            Safety and Security under the National Response plan, to provide
            appropriate law enforcement entities direct access to FEMA disaster
            recovery assistance files for public safety and security efforts,
            including identifying the whereabouts of registered sex offenders and
            fugitive felons.




          Improvements to Information Sharing are Needed to Facilitate Law
                      Enforcement Efforts During Disasters


                                    Page 15
           3. Collaborate with DOJ to develop protocols, procedures, and processes
              to facilitate the appropriate sharing of information from FEMA
              disaster recovery assistance files among federal, state, local, and tribal
              law enforcement agencies that are responsible for ensuring public
              safety and security following a disaster.
Fraud Detection
           The Computer Matching and Privacy Protection Act, which establishes
           procedural safeguards for computerized matching of Privacy Act-
           protected information, prevented federal Inspectors General from
           immediately performing computer matching to identify Hurricane Katrina
           disaster assistance fraud because it required an extensive review and
           approval process before interagency computer matching could be
           performed.

           According to the Inspector General Act of 1978, it is the responsibility of
           each Inspector General to conduct, supervise, or coordinate all matters
           relating to the promotion of economy and efficiency, and the prevention
           and detection of fraud and abuse in programs and operations administered
           or financed by their agency. Computer matching is the retroactive,
           automated comparison of two computerized databases. It can be used to
           identify relationships that indicate possible instances of fraud. In contrast
           to manual searches, computer matching provides the capability to analyze
           massive volumes of data quickly and inexpensively.


     The Computer Matching and Privacy Protection Act

           The President’s Council on Integrity and Efficiency and the Executive
           Council on Integrity and Efficiency conduct interagency and inter-entity
           audits, inspections, and investigations to promote economy and efficiency
           in federal programs and operations and address more effectively


            Improvements to Information Sharing are Needed to Facilitate Law
                        Enforcement Efforts During Disasters


                                      Page 16
government-wide issues of fraud, waste, and abuse. These two councils
recently reported to Congress that the requirements of the Computer
Matching and Privacy Protection Act prevented the initiation of several
proactive fraud investigations relating to Hurricane Katrina. Moreover,
members of the Hurricane Katrina Fraud Task Force told us that computer
matching is an invaluable tool for fraud investigations. However, a
computer matching agreement generally takes several months to execute,
thereby forcing the Hurricane Katrina Fraud Task Force to rely on manual
searches within numerous disaster assistance databases.

Meeting the requirements of the Computer Matching and Privacy
Protection Act is time-consuming:

(1) A computer matching agreement must include a cost/benefit analysis,
    statement of purpose, explanation of legal authority, description of
    records to be matched, procedures to be followed in providing
    individual notice and verifying information produced in the matching
    program, procedures for record retention and for ensuring security of
    the records matched and the resulting matches, and statement of
    prohibitions on duplication and further disclosure of records involved
    in the match.
(2) Interagency concurrence must be obtained.
(3) The agreement must be approved by a Data Privacy and Integrity
    Board.
(4) Congress and the Office of Management and Budget must be notified
    at least 40 days prior to implementation.
(5) A notice of the computer matching agreement must be published in the
    Federal Register at least 30 days prior to implementation.

An exemption from the Computer Matching and Privacy Protection Act
for federal Inspectors General would improve the efficacy of fraud
investigations, the identification and subsequent mitigation of improper



Improvements to Information Sharing are Needed to Facilitate Law
            Enforcement Efforts During Disasters


                          Page 17
           payments, and would facilitate the thorough assessment of internal
           controls.




Issue for Congressional Consideration
           Only the U.S. Congress has the authority to exempt federal law
           enforcement agencies, including Inspectors General, from the Computer
           Matching and Privacy Protection Act to support their efforts to identify
           and prevent fraud, waste, and abuse in an expeditious manner. Such an
           exemption would greatly facilitate the efforts of the federal law
           enforcement community to obtain and analyze federal disaster assistance
           records for the purpose of promoting integrity in federal disaster assistance
           programs and detecting, preventing, and prosecuting disaster benefit fraud.




            Improvements to Information Sharing are Needed to Facilitate Law
                        Enforcement Efforts During Disasters


                                      Page 18
Appendix A
Objectives, Scope, and Methodology



Management Comments and OIG Analysis
The Privacy Office generally concurred with our recommendations regarding appropriate routine
uses of FEMA disaster recovery assistance files, agreements to effectuate the routine uses, and
protocols to facilitate the routine uses. FEMA agreed that a process must be implemented that
minimizes any delay in getting information needed to the appropriate law enforcement agency. We
consider all three recommendations resolved because steps are being taken to implement them.
However, these recommendations will remain open until they have been fully implemented.

Recommendation 1: Add specific routine uses to the System of Records Notice that authorizes the
disclosure of FEMA disaster recovery assistance files for the purpose of locating registered sex
offenders and fugitive felons in the aftermath of a disaster.

FEMA Response: FEMA believes that the amended System of Records Notice of July 2006,
specifically, the broadened routine uses that applies to law enforcement requests, already includes
facilitating law enforcement access for the purpose of locating registered sex offenders and fugitive
felons in the aftermath of a disaster.

OIG Analysis: We agree that the amended System of Records Notice of July 2006 facilitates law
enforcement access to FEMA disaster recovery assistance files. However, adding specific routine
uses to the Systems of Records Notice for the purpose of locating registered sex offenders and
fugitive felons in the aftermath of a disaster would remove ambiguity concerning the disclosure of
FEMA records for such purposes. We consider this recommendation resolved but open until routine
uses to the System of Records Notice are added that specifically authorize the disclosure of FEMA
disaster recovery assistance files for the purpose of locating registered sex offenders and fugitive
felons in the aftermath of a disaster.

Recommendation 1 – Resolved – Open

Recommendation 2: Develop and execute agreements with DOJ, the coordinator for Public Safety
and Security under the National Response plan, to provide appropriate law enforcement entities
direct access to FEMA disaster recovery assistance files for public safety and security efforts,
including identifying the whereabouts of registered sex offenders and fugitive felons.

FEMA Response: FEMA thinks it appropriate to grant law enforcement entities direct “limited”
access to their disaster recovery assistance files so long as certain prerequisites are first met. First, a
written memorandum of agreement is entered into by both FEMA and the respective law
enforcement agency. Secondly, the law enforcement agency’s personnel meet all federal electronic
systems security and identity verification requirements. Third, that the law enforcement agency’s


                           Improvements to Information Sharing are Needed to Facilitate Law
                                       Enforcement Efforts During Disasters


                                                     Page 19
Appendix A
Objectives, Scope, and Methodology


authorized employees be trained in FEMA’s system. Fourth, that they be granted only limited “read
only” access to only the information necessary for the respective entity’s specific law enforcement
purposes. FEMA is currently working on executing a memorandum of agreement with the U.S.
Marshals Service to address the public safety and security needs of identifying and apprehending sex
offenders and fugitive felons. FEMA is proposing to provide the U.S. Marshals Service direct
"limited" access to FEMA's information for these specific law enforcement functions. FEMA is
currently exploring more information-sharing agreements for the purpose of identifying and
addressing public safety and security issues.

OIG Analysis: This recommendation is resolved but will remain open until FEMA demonstrates
that an agreement has been executed with the U.S. Marshals Service, and other DOJ components as
appropriate, to provide direct access to FEMA disaster recovery assistance records for public safety
and security efforts, including identifying the whereabouts of registered sex offenders and fugitive
felons.

Recommendation 2 – Resolved – Open

Recommendation 3: Collaborate with DOJ to develop protocols, procedures, and processes to
facilitate the appropriate sharing of information from FEMA disaster recovery assistance files among
federal, state, local, and tribal law enforcement agencies that are responsible for ensuring public
safety and security following a disaster.

FEMA Response: FEMA is currently addressing this recommendation and has already developed
protocols, procedures, and processes to facilitate the appropriate sharing of information with two
DOJ components.

OIG Analysis: This recommendation is resolved but will remain open until FEMA demonstrates
that protocols, procedures, and processes are established that facilitate the appropriate sharing of
information from FEMA disaster recovery assistance files among federal, state, local, and tribal law
enforcement agencies responsible for ensuring public safety and security following a disaster.


Recommendation 3 – Resolved – Open

The objective of our audit was to determine the adequacy of DHS’ information sharing processes
and procedures for Hurricane Katrina, and to determine what enhancements are needed to support
law enforcement efforts.




                           Improvements to Information Sharing are Needed to Facilitate Law
                                       Enforcement Efforts During Disasters


                                                     Page 20
Appendix A
Objectives, Scope, and Methodology


We conducted our audit from April through December 2006 and reviewed agency documents,
analyzed pertinent policies and procedures, interviewed cognizant officials, and evaluated internal
controls.

Our fieldwork extended to various federal, state, and local agencies, and nongovernmental
organizations, including the National Center for Missing and Exploited Children and the American
Red Cross. We interviewed officials from components within DHS, including FEMA, the Office of
Policy, the Office of Intelligence and Analysis, the DHS Privacy Office, the DHS Office of General
Counsel, and various other components within DHS. Furthermore, we interviewed federal officials
at the FBI, USDA, HHS, HUD, Internal Revenue Service, DOJ, Department of Labor, Social
Security Administration, Small Business Administration, and U.S. Postal Service. We also
interviewed various state and local officials, including the Mississippi State Police, the Louisiana
State Police, and a Louisiana State Representative. We held discussions with the U.S. Attorney for
the Middle District of Louisiana, and other officials on the Hurricane Katrina Fraud Task Force. In
all, we met with 118 officials. Also, we examined approximately 4,000 pages of documentation
relating to information sharing, including federal law, policies, and lessons learned from Hurricane
Katrina.

We acknowledge the cooperation and courtesies extended to the audit team during the course of this
audit. We conducted this audit under the authority of the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards.




                           Improvements to Information Sharing are Needed to Facilitate Law
                                       Enforcement Efforts During Disasters


                                                     Page 21
Appendix B
Management Comments




                      Improvements to Information Sharing are Needed to Facilitate Law
                                  Enforcement Efforts During Disasters


                                                Page 22
Appendix B
Management Comments




                      Improvements to Information Sharing are Needed to Facilitate Law
                                  Enforcement Efforts During Disasters


                                                Page 23
Appendix B
Management Comments




                      Improvements to Information Sharing are Needed to Facilitate Law
                                  Enforcement Efforts During Disasters


                                                Page 24
Appendix B
Management Comments




                      Improvements to Information Sharing are Needed to Facilitate Law
                                  Enforcement Efforts During Disasters


                                                Page 25
Appendix B
Management Comments




                      Improvements to Information Sharing are Needed to Facilitate Law
                                  Enforcement Efforts During Disasters


                                                Page 26
Appendix B
Management Comments




                      Improvements to Information Sharing are Needed to Facilitate Law
                                  Enforcement Efforts During Disasters


                                                Page 27
Appendix B
Management Comments




                      Improvements to Information Sharing are Needed to Facilitate Law
                                  Enforcement Efforts During Disasters


                                                Page 28
Appendix B
Management Comments




                      Improvements to Information Sharing are Needed to Facilitate Law
                                  Enforcement Efforts During Disasters


                                                Page 29
Appendix B
Management Comments




                      Improvements to Information Sharing are Needed to Facilitate Law
                                  Enforcement Efforts During Disasters


                                                Page 30
Appendix B
Management Comments




                      Improvements to Information Sharing are Needed to Facilitate Law
                                  Enforcement Efforts During Disasters


                                                Page 31
Appendix B
Management Comments




                      Improvements to Information Sharing are Needed to Facilitate Law
                                  Enforcement Efforts During Disasters


                                                Page 32
Appendix B
Management Comments




                      Improvements to Information Sharing are Needed to Facilitate Law
                                  Enforcement Efforts During Disasters


                                                Page 33
Appendix B
Management Comments




                      Improvements to Information Sharing are Needed to Facilitate Law
                                  Enforcement Efforts During Disasters


                                                Page 34
Appendix B
Management Comments




                      Improvements to Information Sharing are Needed to Facilitate Law
                                  Enforcement Efforts During Disasters


                                                Page 35
Appendix C
FEMA November 2004 System of Records Notice




                         Improvements to Information Sharing are Needed to Facilitate Law
                                     Enforcement Efforts During Disasters


                                                   Page 36
Appendix C
FEMA November 2004 System of Records Notice




                         Improvements to Information Sharing are Needed to Facilitate Law
                                     Enforcement Efforts During Disasters


                                                   Page 37
Appendix C
FEMA November 2004 System of Records Notice




                         Improvements to Information Sharing are Needed to Facilitate Law
                                     Enforcement Efforts During Disasters


                                                   Page 38
Appendix C
FEMA November 2004 System of Records Notice




                         Improvements to Information Sharing are Needed to Facilitate Law
                                     Enforcement Efforts During Disasters


                                                   Page 39
Appendix D
FEMA Guidance on Handling Law Enforcement Requests




                          Improvements to Information Sharing are Needed to Facilitate Law
                                      Enforcement Efforts During Disasters


                                                    Page 40
Appendix D
FEMA Guidance on Handling Law Enforcement Requests




                          Improvements to Information Sharing are Needed to Facilitate Law
                                      Enforcement Efforts During Disasters


                                                    Page 41
Appendix E
FEMA July 2006 System of Records Notice




                          Improvements to Information Sharing are Needed to Facilitate Law
                                      Enforcement Efforts During Disasters


                                                    Page 42
Appendix E
FEMA July 2006 System of Records Notice




                          Improvements to Information Sharing are Needed to Facilitate Law
                                      Enforcement Efforts During Disasters


                                                    Page 43
Appendix E
FEMA July 2006 System of Records Notice




                          Improvements to Information Sharing are Needed to Facilitate Law
                                      Enforcement Efforts During Disasters


                                                    Page 44
Appendix E
FEMA July 2006 System of Records Notice




                          Improvements to Information Sharing are Needed to Facilitate Law
                                      Enforcement Efforts During Disasters


                                                    Page 45
Appendix F
Major Contributors to this Report


                          Norman Brown, Supervisory Program Analyst, Department of Homeland
                          Security, Office of Disaster Assistance Oversight

                          Devin Polster, Audit Manager, Department of Homeland Security, Office of
                          Disaster Assistance Oversight

                          John Meenan, Senior Auditor, Department of Homeland Security, Office of
                          Disaster Assistance Oversight




                             Improvements to Information Sharing are Needed to Facilitate Law
                                         Enforcement Efforts During Disasters


                                                       Page 46
Appendix G
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Policy
                      Assistant Secretary for Legislative and Governmental Affairs
                      Administrator, FEMA
                      Undersecretary for Management
                      Chief Privacy Officer
                      Chief Information Officer
                      Chief Security Officer
                      Chief Information Security Officer
                      DHS OIG Liaison
                      FEMA Audit Liaison
                      Chief Privacy Officer

                      Department of Justice

                      Deputy Attorney General

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




                        Improvements to Information Sharing are Needed to Facilitate Law
                                    Enforcement Efforts During Disasters


                                                  Page 47
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG
web site at www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •   Call our Hotline at 1-800-323-8603;
    •   Fax the complaint directly to us at (202) 254-4292;
    •   Email us at DHSOIGHOTLINE@dhs.gov; or
    •   Write to us at:
          DHS Office of Inspector General/MAIL STOP 2600, Attention:
          Office of Investigations - Hotline, 245 Murray Drive, SW,
          Building 410, Washington, DC 20528.
